EXHIBIT B<h)

>

TexasCOLLEGE
Southmost

■p

l

%JP

80 Fort Brown * Brownsville, Texas 78520 • (956) 295-3770 • Fax (956) 948-9459 • www.tsc.edu

May 18, 2018
U.S. Equal Employment Opportunity Commission
San Antonio Field Office
5410 Fredericksburg Rd, Suite 200
San Antonio, XX 78229
Dear Sir/Madam,
Texas Southmost College submits this position statement and supporting documentation pursuant to the Texas
Workforce Commission Civil Rights Division’s request on December 4, 2017.
Address each alleged discriminatory act and your position regarding it and provide copies of documents
supporting your position and/or version of the events.
Dr. Imeh Affiah was employed by Texas Southmost College on September 1,2016. His title/position was Dean of
Healthcare, Career, and Technical Education. Dr. Imeh Affiah was simultaneously given a Notice of Nonrenewal
and Notice of Administrative Leave with Pay on February 22, 2017 (Attachment !). He was placed on
administrative leave with pay due to multiple pending investigations of misconduct against him. Dr. Affiah’s
wages and benefits were not affected during the period of administrative leave with pay. His contract was nonrenewed effective September !, 2017.
Dr. Affiah alleges that an administrator, Dr. Marti Flores, with the same salary scale as his, was given an
opportunity to continue being paid the same salary while working at a lower level position. He claims that Dr.
Flores was still in this position, in the same salary scale, the time he left the college. He claims he was treated
differently when hisxontract was non-rene\ved. The facts are as follows:
*

September 1, 2013 - Dr. Marti Flores was initially employed at Texas Southmost College as Dean of
Healthcare, Career, and Technical Education at a fixed rate of pay of $90,000 - Attachment 2

*

September 1, 2014 Dr. Marti Flores was promoted to Vice President of Instruction for Texas Southmost
College with a fixed rate of pay of $132,715 - Attachment 3

*

August 8, 2016 Dr. Marti Flores was advised by Mike Shannon, Interim President, that her contract as
Vice President of Instruction would not be renewed - Attachment 4
o Dr. Marti Flores’ final rate of pay as Vice President of Instruction was $ 135,369.00 Attachment 5

«

August 9,2016 - Dr. Marti Flores applied for Instructor, Radiologic Technology - Attachment 6

The College District prohibits discrimination, including harassment, against any employee on the basis ofrace,
color, religion, gender, national origin, age, disability, or any other basis prohibited by law.

®

August 22, 2016 ~ Dr. Marti Flores was appointed as Instructor, Radiologic Technology with a salary for
the period fixed at $67,786.00. Attachment 7

®

September 1, 2016 - Dr. Affiah was employed by TSC as Dean of Healthcare, Career, and Technical
Education with a salary for the period fixed at $88,992.00 - Attachment 8

®

September 1,2017 - Dr. Affiah’s contract was non-renewed - Attachment 1

The facts show that Dr. Marti Flores and Dr. Affiah were never on the same pay scale (Attachment 9). He was a
Divisional Dean and she was a Vice President of Instruction. The facts also show that Dr. Marti Flores was
appointed as Instructor, Radiologic Technology with a lower salary.
i

Provide a description of the organization; include the organization’s legal name and address, the name,
^ address,' title,' telephone'number 'and' email ~ address of the person responsible for responding to the charge,
the primary nature of the business, and the number of employees, A staffing or organizational chart is also
useful in helping to focus the investigation.
Texas Southmost College
80 Fort Brown
Brownsville, Texas 78520
Lissa Frausto, Chief Human Resources Officer
(956) 295-3771
1 issa. frausto@tsc. edu
Higher education/community college
Number of employees: 520
Provide any applicable practices, policies or procedures applicable to the allegations in the charge.
DDA Legal & Local - Term Contracts
DH Local - Employee Standards of Conduct
DMAB Local - Non Renewal
DOA Legal 8c Local - Employee Welfare, Freedom from Discrimination, Harassment, and Retaliation
Identify any individuals other than the Charging Party who have been similarly affected by these practices,
policies or procedures; describe the circumstances in which the practices, policies, or procedures have been
applied.
None,

^ “f Explain why individuals who were in a similar situation to the Charging Party were not similarly affected.
Not applicable.
Identify officiates) who made decisions or took action relating to the matter(s) raised in the charge.
Mike Shannon, Interim President
Texas Southmost College
80 Fort Brown
Brownsville, Texas 78520
(956) 295-3603

J

j

Be specific about date(s), action(s) and location(s) applicable to this case.
Dr. Affiah accumulated a series of complaints filed against him for various reasons. The complaints accumulated
over a very short period of time, and began soon after his employment started with TSC. These complaints were

ICCSU1 vcu.

tu January z.ui /, oumpiaims were meo against ur. Arrian, aueging ne sexually narassed temaie
employees (Attachment 10 & 11). Mike Shannon, who was the Interim President of TSC at the time, determined
that it was in TSC s best interest to place Dr. Affiah on administrative leave with pay pending an investigation into
these allegations. Mr. Shannon also decided to not renew Dr. Affiah’s contract. The College tried several times to
get Dr. Affiah to respond to the allegations against him. Dr. Affiah failed to cooperate in the investigative
interviews, which were concluded without his participation (Attachment 12).
Provide internal investigations of the alleged Incidents or grievance hearing reports.
vU Not applicable.
Respectfully,
-

Lissa Prausto, MBA, SPHR
Chief Human -Resources Officer
956-295-3771

1
June18, 2018

Imeh U. Affiah
375 Media Luna Road, # 2401
Brownsville, Texas 78521

Mr. Cesar O. Ostolaza
Federal Investigator
U.S. EEOC
San Antonio Field Office
5410 Fredericksburg Road
Suite 200, San Antonio
Texas 78229
Re: Charge No. 451-2018-00221 (imeh U. Affiah v. Texas Southmost College)
Dear Mr. Ostolaza,
! am hereby responding to Texas Southmost responses to my complaints
filed with the U.S. Equal Employment Opportunity Commission, San Antonio Fieid
Office.
(1) • Allegation of an administrator. Dr. Marti Flores IHispaniel who was treated
differently from me (black) when her contract was not renewed constitutes
racial discrimination.
• FACTS
Ms. Lissa Frausto, the orchestrator of these discriminatory acts (please review
the supporting documents already provided), which culminated in non-renewal of my
employment contract gives a full employment history of Dr. Flores without providing
the pertinent information. I must point out that my allegation on this particular issue
does not reflect my feelings towards Dr. Flores as a person. I do not have anything
against Dr. Flores as a person or professional. I am just using her case to compare
the discriminatory treatment that I received from Texas Southmost College. I do not
care about Dr. Flores’ salary history at Texas Southmost College. As the Dean of the
division that Dr. Flores was working, I had full access to the detailed budget of the
division. In each program the salaries of the faculty and staff was clearly shown.
When I reviewed the budget, I saw Dr. Flores’ salary at the time to be almost
$90,000. Her position was not defined. I ran into Mr. Mike Shannon (Interim
President) who explicitly indicated to me that he fired Dr. Flores and that he felt all
the key administrators including him should have been fired. He further indicated
that he was forced to take the interim role as the President and as soon as a
new President is hired, he wifi be gone. This has turned out to be true. I told
him that I saw Dr. Fiores but we did not have time to talk and that! was planning on
having a meeting with her. Mr. Shannon asked me why I wanted to have a meeting
with her, I indicated to him that I fee! I can assist me in developing new programs in
the division based on her expertise and experience. Then, Mr. Shannon indicated to
me that Dr. Flores was there temporary looking for employment somewhere and that
the Board of Trustees asked him to do so. When I arrived at Texas Southmost, one
of the first thing that I was asked to do was to sign and approve the new faculty and

2

staff documents in my division. There was nothing on Dr. Flores. I had almost a twohour meeting with Dr. Flores within my first week as the Dean. I must point out she
was my prospective supervisor that interviewed me. During the meeting, she
indicated to me that she will do everything within her power to help me to be
successful and asked me not to hesitate in seeking her advice at any time. I asked
her if she needed as a reference for a job because Mr. Shannon had indicated to me
that she was there temporary looking for a job. She responded “No, Dr. Affiah this is
my home and I am not going anywhere”.
Legal Analysis:
At the time of my starting as the Dean, Dr. Flores was in the same salary
bracket as I was based on the information I received from the division budget (as
indicated above), if I had known that I would be in this position now, 1 would have
kept a copy of the document. So, the information provided by Ms. Frausto is false
and fabricated. The proof of this can be seen on the income tax return and W-2
forms of Dr. Flores. To verify the validity of these documents when Ms. Frausto
decides to provide them, I request the EEOC to seek IRS confirmation.
There was no documentation of Dr. Flores application for the position as Ms. Frausto
has fabricated. There was no advertisement for the position with the fabricated
salary as Ms. Frausto has provided. There was no evidence of interviews and
selection for this fabricated position by Ms. Frausto as is done for every other
position. So, when I reviewed the documents for new employees in this division, I did
not see anything belonging Dr. Flores. ! signed documents for the other employees
who were hired before the fabricated dates provided by Ms. Frausto for Dr. Flores. It
is very astonishing that Ms. Frausto was unable to suggest or provide these
documents and information on Dr. Fiores during mediation. So, it is convenient that
given enough time, she could fabricate, amend documents and information now to
suit her purpose.
Based on the facts provided above, Dr. Flores (Hispanic) was given opportunity
to earn a living (regardless of the compensation) after termination by Mr. Mike
Shannon (white). I (black) was not afforded the same opportunity. This Is racial
discrimination. 1 must emphasize again this treatment as discriminatory. Dr. Flores
was still earning salary slightly higher than mine (but at the same salary bracket) as
the Dean at a fabricated position by Ms. Frausto as Clinical Coordinator. The W-2
form (ending December 2016) of Dr. Fiores confirmed by the IRS will prove this to
be true. Please I request the EEOC to ask the Attorney for Texas Southmost College
to provide the income tax returns of Dr. Flores for 2016 and 2017. i also request
verification and confirmation from the IRS.

3

(2). Provide a description of the organization: include the organization’s legal
name and address, the name, address, title, telephone number and e-mail
address of the person responsible for responding to the charge, the primary
nature of the business, and the number of employees. A staffing or organizational
chart is also useful in helping to focus the investigation.
FACTS:
The information provided by Ms. Frausto failed to indicate the
organizational chart. Ms. Frausto was the Director of Human Resources for Texas
Southmost College when 1 was working there. She was never my supervisor or the
other Deans. Prior to my arrival at Texas Southmost College, 1 discussed my salary
on the phone with Ms. Frausto. During the conversation, she asked me where I
came from and it was then that the racial hatred and bias started. This was very
obvious when we were discussing my salary. She insisted that I should be paid
$72,000.00/ year despite my credentials and years of experience, which was more
than any of the existing Dean. Also, this was contrary to the amount that was
advertised at $85,000.00/yr. (starting). When I pointed out the advertisement amount
to her, she said that she was not responsible for that because she was not working
at Texas Southmost College when the position was advertised. When I arrived at the
school, I discovered from Dr. Flores that her statements were false and that she was
had been working at the institution and was responsible for the advertisement. Ms.
Frausto also told me on the phone that she would discuss my salary concerns with
the interim President, Mr. Mike Shannon and would get back with me. The following
day or so, when i called her again, Ms. Frausto indicated to me that Mr. Mike
Shannon advised her to start my salary at the same rate with the other two Deans.
After one month on the job, ! realized that salary she quoted to me was less than the
other two Deans. Since ! had already signed document I could not do anything about
it. When I approached the interim President on this discrepancy, he told me that I
should not worry that it will be corrected during the next pay raise. The pay raise that
I did not survive to get. I was never told that Ms. Frausto was my supervisor but she
consistently treated me as her subordinate. The same treatment was not extended
to other Deans, rather they were treated with respect and dignity. This started from
day one and what I did to Ms. Frausto to deserve such treatment is nothing more
than the color of my skin.
From the information that Ms. Frausto has provided, which i am seeing
for the first time, the starting salary for the Dean of this Division was
$90,000.00 in September 2013. Every year, according to the school’s policy there a
pay raise calculated on a certain formula that Ms. Frausto refused to share with me
when I requested. Compare my credentials and years of experience to the Dean at
that time, mine is better by far. Fast forward to September 2016, my credentials has
been the same plus additional professional continuing education for the past 15
years and my years of experience have increased but my starting salary was less
than $90,000.00. This another evidence of discrimination that I never realized not
until now.

Legal Analysis:
Ms. Frausto was never my supervisor but she assumed that role. In all these
documents and information, it is Ms. Frausto responsible for carrying out these
discriminatory acts. From the fabrication of the documents and false accusations
leading to my termination of appointment, Ms. Frausto is the chief architect for my
deplorable condition now.

(3j Identify, any individual other than the charging Party who have been similarly
affected bathes© practices, policies or procedures, describe the circumstances;
in which.the practices, policies, or procedures have been applied
FACTS:
Ms. Frausto in her response explicitly indicates her discriminatory practices,
policies or procedures were only applicable to the only none Hispanic, none White but
Black person who has ever taken administrative role at this college. I was the only black
person that the former President, Dr. Tecero made a bold move to employ at Texas
Southmost College at a key position after a lengthy interview. Ms. Frausto upon seeing
me in person started creating a hostile working environment for me and spreading false
information about me to Mr. Mike Shannon and others on campus. Unfortunately, none
of these individuals is willing to testify on my behalf because they need their jobs! When
I learned from someone in the community, Mr. John Fiest (a friend to Mike Shannon)
that Ms. Frausto was spreading false information about me to others, I tried to meet with
Mr. Mike Shannon to discuss my concerns but he never met with me. Mr. Fiest also
tried to arrange for Mr. Mike Shannon to meet with me but was unsuccessful. (Please
refer to supporting document already provided for further details)
Legal Analysis:
The response from Ms. Frausto on this issue is self-explanatory. Her or their
practices, policies or procedures probably apply to certain racial group different from
Hispanic or white.
H)- Explain whyjndiyitfaats who were in a similar situation to fee charging party
were not similarly affected.
FACTS:
Once again Ms. Frausto response clearly shows others were not the targets of
these discriminatory treatments. I was the only black in such a position and as a result I
was the obvious attack. Unfortunately, I did not realize at the beginning else I would
have looked for employment somewhere else. Now it is difficult for me to get
employment under this cloud of none renewal of contract or termination.

5

Legal Analysis:
This is another evidence that i was treated differently from others of other races.
This is discrimination.

(5). identify officiates) who made decisions or took action relating to the matterfs)
raised in the charge.
FACTS:
It is true that Mr. Mike Shannon was the Interim President and he was my
supervisor.
Legal Analysis:
Ms. Frausto claimed that series of complaints were filed against me and this was
the basis of my termination. As a supervisor myself, I would have reviewed each
complaint with the complainant and the defendant with documentation before any final
decision. This is the policy in any workplace. Moreover, where was the warning after
one or two complaints? What and where are the policies on complaints?
A person who has clearly demonstrated her racial bias fabricates documents and
provides no concrete evidence but destroys someone’s life through job termination
shows discrimination.
(6). Be specific about date(s). actsonfsl and tocationfs) applicable to this case.
FACTS:
Ms. Frausto has failed to provide the fabricated documents for the so-called series
of complaints that she claimed culminated in my termination. She claimed the
complaints were filed immediately 1 started working and were resolved. She was asked
to be specific about date(s), action(s), and location(s). No evidence of complaints filed
from Ms. Frausto. She could not provide even one. She could not provide what the
complaints were all about. She could not the name(s) of people who filed the
complaint(s). She could not provide the information on how these complaints were
resolved without my knowledge of who, when and what the complaints were all about.
She could not provide the information on the remedies that these complainants sought.
This is a matter of sound policy.
Ms. Frausto did not have the information above, then proceeded to recommending my
termination to Mr. Mike Shannon, who never heard my version of Ms. Frausto
allegations.
Regarding the alleged sexual harassment she indicated in her response
I do not have the documents indicated as attachments 10 & 11 to address this issue
properly. I am not sure whether these are another fabricated documents by Ms.
Frausto. She claims now female employees filed so-called sexual harassment charges
even after I left Texas Southmost College. At first, I heard rumors of a young female
work-study student whom she refused to identify. Unfortunately, according to the

6

rumors, it was not the young lady did not file any complaint against me. It was a racially
bias, hateful instructor (Ms. Amaral) who saw me in the tutoring room reported me to the
Human Resources and spread this false news about me throughout the campus. ! must
point out that this same instructor in her quest to find any negative information about me
claimed that she googled me. From the google that she discovered that I was sued by
someone or agency. She discussed this in a public forum with other employers (see
document aftached-AMARAL). Unfortunately for her, I have never been sued by anyone
or agency.
I have attached copies of the documents (20 pages) containing detailed information
on how my attorney then and the TSC handled the matter. Ms. Frausto claimed that I
refused to cooperate with the college in this matter. That is completely false and the
documents that I have attached prove contrary. She has been so determined in getting
negative information and cannot get the simple facts straight. Please compare the
documents that i have attached with the so-called confidential documents, Ms. Frausto
has provided. This may probably be the most important evidence of fabrication by Ms.
Frausto.
Legal Analysis:
MS. Frausto fabricated and claimed that series of complaints were filed against
me. As a result, my appointment was terminated. Documents and details of these
complaints were requested by the attorney who helped me prior to my filing this case
with the EEOC. Ms. Frausto did not have any document to produce then. Now the
EEOC has requested the same information and Ms. Frausto still does not have anything
to show. She wants this agency to take her by her own words just like Mr. Mike
Shannon did. Decision was made to terminate my appointment without and proof that I
violated any law and policies of Texas Southmost College. Ms. Frausto presented me
with alleged sexual harassment charge and without any investigation. At the same time
presented me with a letter of termination. What happened to the phrase “innocent till
proved guilty”? Is this the procedure on handling complaints or grievance in any place of
employment? Can Ms. Frausto provide a copy of this procedure for handling
Grievance or complaints because I never saw one? Ms. Frausto claimed that she
unilaterally conducted investigation without my input except my initial response (see
attachment) to the charge she sent me (see attachment). ! do not have any idea of
attachment 12 that she provided. If these are valid documents, why are they secrets?
My employment status was determined and I was placed on administrative leave based
on rumors and innuendos.
This is another evidence of discriminatory treatment by Ms. Frausto.
(7). Provide internal Investigations of the alieqed incidents or grievance hearing
reports.
This response clearly shows another evidence to cover up discriminatory acts by
Ms. Frausto. Ms. Frausto was not only the Director of the Human Resources but by
policy a representative of the EEOC for Texas Southmost College. If these treatments
were carried out by other individuals, she was the one that I should have reported to

7

first. She should have known better that these actions were discriminatory. In my case
these actions clearly demonstrated racial discrimination as the only black administrator
in the whole institution. As the Director of the Human Resources, she is not above the
law. She appeared not to understand or able to carry out her own institutions policies,
procedures and practices. She is unable provide simple documentation. Any document
she decides to provide is filled with fabrications. In this response, she claims that
documentation on this issue is not applicable and therefore not necessary.
SUGARY
I was the only black administrator out of 520 employees. There were only 2 other
black employees at instructional level out of the 520 employees. There is no evidence
that! did not carry out my job responsibilities effectively and efficiently. The interim
President and some Board members complimented me on my job performance during
the Board of Trustees’ meeting. This termination and treatments were purely racially
motivated orchestrated by Ms. Lissa Frausto.! have outlined the sequence of events
that led to the respondent’s retaliation against me and culminated in the termination of
my employment in my supporting documents. I have also provided supporting narratives
and documents to support allegations. The respondent, contrary, danced around
casually and not addressing my charges and not providing the pertinent documents.
She has accused me of certain things without any proof that I did anything
inappropriate, illegal or against the laws and policies of Texas Southmost College that
warranted my employment’s termination. I sincerely plead with the agency to
thoroughly review all these documents that I have provided and compare them to the
responses by the defendant. It is up to this agency to determine the defendant’s
veracity in the whole information gathering process. I was clearly treated differently from
other Deans and employees. I was subjected to humiliation and hostile working
environment.
Finally, ! sincerely plead with this agency to find the respondent liable for
violating my rights and discriminating against me because of my race and the color my
skin as I have clearly outlined.

EXHIBIT C(h)

,/

FROM DEFENDANTS’ SUMMARY
JUDGEMENT REPORTS

\
;

\

faculty, and discrimination on

fc.-

the basis of race and ethnicity of an employee. (See Exhibit A).

Defendant had to invest substantial time and resources

9.

concerns

to investigate the complaints,

and conflicts raised against Plaintiff by multiple individuals during his six months of

employment (prior to being placed on administrative leave with pay),
documentation and investigative

Copies of the

findings from each of these matters that had to be addressed are
and
The individuals who expressed such complaints

attached hereto. (See Exhibits B-M)

concerns included administrative assistant

Martha Espinoza, administrative assistant Joanna

ice President of Instruction Donald
Cervantes, employee Maria Del Carmen Rodriguez, Co-Vice
Consuelo Villalon, Dean Angelica Fuentes, student
Crouse, student Steven Martinez, employee
Martha Boetit and employee July Enriquez. (See Exhibit A). Additional concents were
tutor
ion of Defendant by Professor Dr. Charity Cavazos and Professor Dr.
brought to the attention
formal complaint. (See Exhibits J, K, O
Catalina Amaral although Dr. Cavazos chose not to file a
and P).
10.

While all complaints, concerns

and conflicts regarding Plaintiff that werebroughUo&e

attention of Defendant were significant andplayedjjolemjhe^^

-renew Plaintiff

unwanted sexual harassment and
of particular concern were the complaints regarding
discrimination. On January 30, 2017, Student Tutor Martha Boeta made a sexual harassment
ciomplaintiagainst Plaintiff asserting that he had made comments to her at work such as "I like
your accent", "I can

smell your perfume tom the other side of the hallway”, "your voice is really

on one in a more relaxed environment". (See
sexy and I would like to meet with you one
lained that Plaintiff had gone into her classroom and was
Exhibits A, I, and N). Boeta also comp
leaning over her in a way that was too close and made her feel uncomfortable with his hand on
her shoulder making her feel nervous

and afraid. (See Exhibits A, I, and N). This event was

witnessed by professor Dr. Catalina Amaral. (See Exhibits A, I, J, N and P). The allegations

7

i

EXHIBIT H

Lissa Frausto
From:

Sent:
To:

Subject:

Mike Shannon
Monday, January 23, 2017 11:59 AM
Lissa Frausto
FW: Concern

Call me after you read thru this.
Mike
Mike Shannon
Interim President
Texas Southmost College
From: Angelica Fuentes
Sent: Sunday, January 22, 2017 3:26 PM
To: Mike Shannon <mike.shannon@tsc.edu>
Cc: Donald Crouse <donald.crouse@tsc.edu>
Subject: Concern
Mr. Shannon,

A

f

I would like to take this opportunity to share a concern I have regarding Dr. Imeh Affialvt Friday, January 20th, at
approximately 5:30 p.m., Mr. Ruben Reyes, Department Chair for the Mathematics andN^iura^erene&Jl^partment,
brought a concern to me. Dr. Catalina Amaral had told him that one of our science tufSrvMartha Boeta/to^ her that
Dr. Affiah had asked her questions regarding her relationship status, and it made her Wuncomfortable
told her
that he was looking for a "Latina." He often visits the USSR room, which is a science study room for student use. Martha
is assigned to this room to tutor science students. She is a former TSC student, part time employee, and now is a student
at UTRGV. I would like to add that Dr. Affiah does not have any affiliation to this room. Mr. Reyes and I have not spoken
directly to Martha regarding these incidents. She spoke to Dr. Amaral. Dr. Amaral took this information to her
department chair, and Mr, Rey
ok this information to his Dean.
On January 10* I had lunch m
• Amaral and Dr. Charity Cavazos. Dr. Cavazos was an adjunct instructor during the
fall semester, but for spring, she has joined our faculty on a full-time basis. Over lunch, she told me that when she was
an adjunct instructor, Dr. Affiah would_go to the adjunct designated workplace and ask her questions about her teaching
and science content. At this^-tune/ur. Cavazos^<Jj?hjiot know Dr. Affiah’s position. She assumed he was an instructor who
was challenging her expertise.^ proceedg^Ue-gsk her for her number to ask her out. She did not give him her number
and told him that she was not interested. I believe she said that he eventually gave her his number. A few days later, Dr.
Affiah asked her to go to his office. This is when Dr. Cavazos realized that Dr. Affiah was a TSC dean. She went with him
to his office. Dr. Affiah closed the door and proceeded to tell her at that he had googled her and could not find more
information about her. He also wanted to know who she was walking with the day before. Dr. Cavazos is a friend of Dr.
Amaral's son. They were walking together through Set.B.. Dr. Affiah asked her if he was her boyfriend. Dr. Cavazos told
him that she does not have a facebook or use any other social media. She also told him that she was friends with Dr.
Amaral s son, but that was not his business. I asked Dr. Cavazos if she would like to go to Human Resources to file a
complaint. Dr. Cavazos did not want to go to HR because she said that he stopped talking to her completely. For
example, in the mornings, she may walk pass him and say "good morning." He ignores her completely. Dr. Cavazos said
that as long as he does not ask any more inappropriate questions and does not evaluate her, she feels like she does not
need to go to Human Resources.
l

vT

I had made a decision to not take Dr. Cavazos' incident to HR because she clearly stated that she did not want to;
however, now that a second incident has been brought to my attention, 1 feel compelled to take Martha and Dr/
Cavazos' incidents to my supervisor. Numerous people have told me that Dr. Affiah has mentioned on several occasions
that he is looking for a "Latina." He has told me that he was looking for a "Latina." When he first arrived at TSC, my
husband and I asked him over for dinner as kind gesture since he wpsnew to the area. He responded, "Will you have
Latina waiting for me?" I felt that this was inappropriate. Howeve^dji yjectdhfofcjt was necessary to take this to Human
Resources. Now I see a pattern. In addition to Dr. Cavazos and hjtertttjj/ Dr. Tiptonjjas told me about some encounters
she has had with Dr. Affiah. Again, I explicitly asked her if she felttnlrt-i; ;-was-ina{5propriate, she should go to Human
|E^£SS31iti3Hinot think it was necessary. Also, Mrs. Antonia Saldivar told me last week that Dr. Affiah was visiting
ary Rodriguez, Mrs^aldivar's AAs, and calling her frequently. I do not know if he has told her anything inappropriate,
ut Mrs. Saidivarjetfnd it to be weird that he was visiting and calling Mary. I have not asked Mary about his visits.
I do not know if anything can be done about these incidents or even if they warrant any action. I will leave those
decisions to my supervisor and Human Resources. I will continue to report any incidents that are brought to my
attention.

„ Texas
SOUTHMOST
COLLEGE

Angelica M. Fuentes, Ph.D.
Dean
Division of College Preparatory Studies/
Science, Technology, Engineering & Mathematics
80 Fort Brown • Brownsville, Texas 78520
(956) 295-3375 • angelica.fuentesiSitsc.eriii
www.tsc.edu

0

2

EXHIBIT Dih)

COLLEGE
80 Fort Brown • Brownsville, Texas 78520 • (956) 295-3770 • Fax (956) 948-9459 • www.tsc.edu
NOTICE OF SEXUAL HARASSMENT (Excluding Sexual Violence) Complaint Form
Respondent (name): Imeh Affiah
Respondent College Email Address: imeh.affiah@tsc.edu
Respondent Phone Number: 337-962-8224 (cell) or 956-295-3753 (work)
Respondent Physical Address: 375 Media Luna. Apt 2401. Brownsville. TX 78521
Date Complaint Reported: __ Januafv'30.2017
Title IX Coordinator: Lissa Frausto. lissa.frausto@tsc.edu. 956-295-3771
Date Email Sent: 02/02/2017

Date CMRRR Notice Sent: 02/02/2017

I, the Title IX Coordinator, received a complaint regarding a possible Title IX violation that you may or
may not have committed. I shall investigate the complaint. The complaint alleges the following:
You made an employee feel uncomfortable when you asked her to go into your office alone on or
about Monday, January 23, 2017, closed the door, and told her you wanted to meet with her outside
the office “in a, more relaxed environment.” She states she told you she did not want to meet with
you outside of school and did not want to mix up work and personal business. She told you, “With
j all due respect, I am not interested.” She states that you again made her feel uncomfortable when
, ; you went back to her work area on the same day and patted her gently on her shoulder as you
i* / walked by her chair.

f\
V

Please carefully review the attached policy, procedures, and the complaint. You are expected to cooperate fully with
the investigation and be responsive to my inquiries. You have five working days to respond to me in writing to the
complaint. You may do so by responding to the email sent to your College account. Please attach any relevant
documents or evidence. The College takes these matters seriously, and we want to assure you that the College will
address this complaint promptly. Please be advised that the College will not tolerate any form of retaliation toward
the Complainant. If you believe you know who the possible Complainant is, you are advised to not have any contact
with him or her. Throughout the investigation and resolution process, each party has the right to choose and consult
with an advisor. The advisor may be any person, including an attorney, who is not otherwise a party or witness
involved in the investigation. Your advisor may accompany you for your meeting with myself or my designee to
provide support and advice. If you would like to bring an advisor, please do so. Please notify me if your contact
information is incorrect and update your TSC personnel file in Human Resources accordingly.

The College District prohibits discrimination, including harassment, against any employee on the basis of race,
color, religion, gender, national origin, age, disability, or any other basis prohibited by law.

vy 'U i /

Imeh Affiah
From:
Sent:
To:
Subject:

<£T

Lissa Frausto
Thursday, February 02, 2017 1:58 PM
Imeh Affiah
RE: Notice of Sexual Harassment Complaint

Thank you for your reply. I will place it on record. I will be contacting you soon to schedule a meeting. This is simply a
notice. No determinations have been made. The investigation will begin shortly. Thank you. Lissa
From: Imeh Affiah
Sent: Thursday, February 02, 2017 1:48 PM
To: Lissa Frausto <Lissa.Frausto@tsc.edu>
Subject: RE: Notice of Sexual Harassment Complaint
I have read through your complaint. First of all, I do not recall meeting any female in my office on January 23rd , 2017.
Moreover, I do not recall asking any female here at TSC, employee or otherwise and at any time to meet with me
anywhere outside the TSC campus. I have never sexually harassed anyone in my life. I will appreciate you identifying the
complainant and I am prepared to legally defend myself. My attorney will contact you immediately. This is pure
fabrication. Thanks.

f %
„ Texas

SOUTHMOST
C OUEGE

Or. Imeh Affiah
Dean-Health Care, Career and Technical Education
80 Fort Brown ® Brownsville, Texas 78520
(956) 295-3381 • imeh.affjah@tsc.edu
www.tsc.edu

"The quality of a person's life is in direct proportion to their commitment to excellence, regardless of their chosen field
of endeavor"
Vincent T. Lombardi
From: Lissa Frausto
Sent: Thursday, February 02, 2017 1:17 PM
To: Imeh Affiah <imeh.affiah@tsc.edu>
Subject: Notice of Sexual Harassment Complaint
This notice will be mailed to your home address today, Certified Mail, Return Receipt Requested. I will contact you soon
for an appointment to discuss this matter. Thank you for your time.

V

f1

J

- TEXAS
SOUTHMOST
COltEGE

Ossa Frausto, MBA, SPHR
Executive Director of Human Resources
Office of Human Resources
80 Fort Brown ° Brownsville, Texas 78520
(956) 295-3771 ° lissa.frausto@tsc.edu
www.tsc.edu

STAPLETON & STAPLETON
Lawyers
March 3.2017
VIA FACSIMILE 956-504-5991
Frank E. Perez
Frank E. Perez & Associates
300 Mexico Blvd.
Brownsville, TX 78523
Re:

Imeh Affiah

Dear Mr. Perez:
As we discussed, this letter will outline why we urge the manner in which TSC is proceeding
against Dr. Imeh Affiah violates the TSC Policy and Due Process:
1. The notice of February 2,2017 fails to record the accuser. We are not apprised whether
the accuser is a third person or the one who is actually claiming to have been contacted
by Dr. Affiah. It makes a difference, because if the accuser is actually Dr. Catalina
Amaral, there is reason to believe the information is unreliable— a matter we should be
able to address. Dr. Amaral would have no first-hand information and had personal and
improper reasons to make the accusation. Every accusation must have a threshold
reliability before it should be considered and this accusation should be considered in that
light. If the accuser is not Dr. Amaral, we need to know that also, because we can
prepare a response. One potential accuser has already made statements that Dr. Amaral
requested she make a false accusation and if we are informed of the identity of the
accuser, we can respond accordingly. The identity of the accuser should be given in
accordance with your 2/13/14 EMPLOYEE WELFARE (we will refer to this as the
“Policy”) handbook as well which states, “An employee who believes that he or she has
experienced prohibited conduct or believes that another employee has experienced
prohibited conduct should immediately report the alleged acts.”
2. The complaint provided fails to meet the definition of “Sexual Harassment” as provided
in your handbook. The first portion defining “sexual harassment” is not met by the
accusation, nor does the accusation comply with the motive requirements in sections 1
and 2 on page 1 and 2 of the policy.
3. The prerequisite for an investigation under “Investigation of a Report” has not been
met: “Upon receipt or notice of a report, the College District official shall determine
whether the allegations, if proven, would constitute prohibited conduct as defined by this
policy.” This step has not been taken. Under the Policy, there is no basis for this
investigation to begin. We request that such a prerequisite, if it should be met, be in
writing so we can respond.

2401 Wildflower Dr. Ste. C, Brownsville, Texas 78526
T 956-504-0882 / F 956-504-0814

4. Under that provision, according to the Policy, the College District official must make this
determination. Also, according to the Policy, this person is Kim Sanchez. We have not
yet heard from Kim Sanchez and object to an investigation to anyone not designated by
the Policy.
This is where we are in the process. We object to any further proceedings unless these standards
are first met. Beyond this, we then ask that all proceedings comply with the Policy. It is__
our
position that if TSC fails to meet its own Policy requirements, it also violates Due Process and
Due Course of Law under the United States and Texas Constitutions and involves in the
wrongful taking of Dr. Affiah’s liberty and property rights.

2401 Wildflower Dr. Ste. C, Brownsville, Texas 78526
T 956-504-0882 / F 956-504-0814

IMEH AFFIAH
Plaintiff

§
§
§
§
§
§
§

VS.
^CATALINA AMARAL MID.
£
Defendant y

•' IN.THE DISTRICT COURT
C197TH JUDICIAL DISTRICT-'
/OF CAMERON COUNTY, TEXAS,,

AFFIDAVIT OF MARTHA BOETA
BEFORE ME, the undersigned authority, on this day personally appeared Martha Boeta, who by me
duly sworn on her oath, deposed and said:
1.

My name is Martha Boeta. I have personal knowledge of the facts and representations contained herein
and all are true and correct.

2.

I was a student tutor at Texas Southmost College (hereinafter “TSC”) in Brownsville, Texas. I am 22
years old. My mentor at TSC was Catalina Amaral. I informed Cataina Amaral that Imeh Affiah had
sexually harassed me by his conduct and with statements he made to me.

3.

Imeh Affiah told me £1 like your accent”, “I can smell your perfume from the other side of the hallway”,
^your voice is really sexy and that I'would like to meet with me one on one in a more relaxed
^environment”. I told him “with all due respect, no”. I had spoken with my parents about this and they
told me I needed to say something.

4.

At work, Imeh Affiah came into my classroom and was leaning over me in a way that was too close and
making me feel uncomfortable. He had his hand on my shoulder and it made me nervous and afraid.
During this time, Catalina Amaral walked in and saw Imeh Affiah leaning over me too closely. After
Dr. Amaral walked in, Imeh Affiah immediately pulled away from me and left. After he left, I told Dr.
Amaral that Imeh Affiah was asking me to go to his office and if I was dating anyone. I told Dr. Amaral
that his questions and comments made me feel uncomfortable. I told Dr. Amaral that Imeh Affiah had
been going by often and that I had already told him I was not interested. Dr. Amaral told me I should
not be afraid to report sexually harassing behavior to the College even if it was from Imeh Affiah.

5.

I reported Imeh Affiah’s sexually harassing behavior to the College so the College could prevent this
from happening to me or anyone else.

I

!

FURTHER AFFIANT SAYETH NOT.

faiP to
Martha Boeta
SUBSCRIBED AND SWORN to before me, on this the 27th day pT-June,'2017; to certify which witness my
hand and seal of office.
,/
flA/Jj
ARACELI ORTEGA
/■jfVLLi'vKl Notary Public, State of Texas
Comm. Expires 01-27-2021
Notary ID 10616041

Notary Public in arfcLfor the State of Texas
My Commission Expires:

■

Cf

n..
c"

EXJtiimT u

CAUSE NO 2017-DCL-02461

(

IMEH AFFIAH
Plaintiff
VS.
CATALINA AMARAL M.D.
/'Defendant

§
§
§
§
§
§
§

IN THE DISTRICT COURT 197TH JUDICIAL DISTRICT
OF CAMERON COUNTY, TEXAS

AFFIDAVIT OF CHARITY CAVAZOS

BEFORE ME, the undersigned authority, on this day personally appeared Charity
Cavazos, who by me duly sworn on her oath, deposed and said:
1.

My name is Charity Cavazos. I have personal knowledge of the facts and representations
contained herein and all are true and correct.

2.

I am 'a professof at Texas Southmost College (hereinafter ‘TSC”) in Brownsville, Texas.
My mentor at TSC is Catalina Amaral. I informed Catalina Amaral that Imeh Affiah had
sexually harassed me by his conduct and with statements he made to me.

3.

rImeh Affiah told me he had “googled” me and could not find much information about
me. While at work, he asked me questions about whether or not I had a boyfriend or a
relationship with Dr. Amaral’s son. Imeh Affiah called me into his office once and shut
the door making me feel uncomfortable. During working hours he gave me his phone
number and told me about how his fiance had died and he was looking for a Hispanic
woman. His comments made me feel uncomfortable and were not proper in the
workplace in my opinion. I told Catalina Amaral about these encounters and she told me
that if Imeh Affiah’s conduct made me feel uncomfortable I should report this to Human
Resources. I was bothered by this conduct, behavior and his comments at work so I
reported Imeh Affiah’s sexual harassment of me to Catalina Amaral and Lisa Frausto
from Human Resources. When Imeh Affiah confronted me about allegations of sexual
harassment he had come into my office and shut the door. I told him what he wanted to
hear so he would leave me in peace and leave my office.

■

!

I

ER AFFIANT SAYETH NOT.
Chanty Cavazos
SUBSCRIBED AND SWORN to before me, on this the/27th day of June, 2017; to certify which
witness my hand and seal of office.
/
ARACELI ORTEGA
Notary Public. State ct Texas
Comm. Expires 01-27-2021
Notary ID 19616041

mk

i

Notary Public In and for the State of Texas
My Commission Expires:
I

PT-'

t

y

7
v
P''

t-

w?

faculty, and discrimination on the basis of race and ethnicity of an employee. (See Exhibit A).
9.

Defendant had to invest substantial time and resources to investigate the complaints,

concerns and conflicts raised against Plaintiff by multiple individuals during his six months of
employment (prior to being placed on administrative leave with pay),

Copies of the

documentation and investigative findings from each of these matters that had to be addressed are
attached hereto. (See Exhibits B-M). The individuals who expressed such complaints and
concerns included administrative assistant Martha Espinoza, administrative assistant Joanna
Cervantes, employee Maria Del Carmen Rodriguez, Co-Vice President of Instruction Donald
Crouse, student Steven Martinez, employee Consuelo Villalon, Dean Angelica Fuentes, student
tutor Martha Boeta and employee July Enriquez. (See Exhibit A). Additional concerns were
brought to the attention of Defendant by Professor Dr. Charity Cavazos and Professor Dr.
Catalina Amaral although Dr. Cavazos chose not to file a formal complaint. (See Exhibits J, K, O
and P).
10.

While all complaints, concerns and conflicts regarding Plaintiff that were brought tofce

attention of Defendant were significant and played a role in the decisjoiLto non-renew Plaintiff,
of particular concern were the complaints regarding unwanted sexual harassment and
discrimination. On January 30, 2017, Student Tutor Martha Boeta made a sexual harassment
complaint against Plaintiff asserting that he had made comments to her at work such as "I like
your accent", "I can smell your perfume from the other side of the hallway", "your voice is really
sexy and I would like to meet with you one on one in a more relaxed environment . (See
Exhibits A, I, and N). Boeta also complained that Plaintiff had gone into her classroom and was
leaning over her in a way that was too close and made her feel uncomfortable with his hand on
her shoulder making her feel nervous and afraid. (See Exhibits A, I, and N). This event was
witnessed by professor Dr. Catalina Amaral. (See Exhibits A, I, J, N and P). The allegations
7

fits

(f

were found to have some merit. (See Exhibits A, I, and N).
also had sexually harassing expenences with Plaintiff
Professor
Dr.
Charity
Cavazos
11.
which she reported «o her mentor, Dr. Catalina Amaral and Lissa Frausto from Human Resources

if

a formal complaint- (See Exhibits I and K).
--on February 3,2017 even though she did not pursue —
—

■ 1

111

"

■i.hihi

j

____

«

She explained that a, work, PlaintiffWoldl^
,

informafon^about ter, asked her^ersonglxelationship^^^^f^rt^ifi^lt

.15!?

and shut the door making her feel uncomfortable gave ^ his_phonenumber, told

/v^r 04'v •'

office once
looking for a Hispanic woman-^See Exhibit^
her about how his fiance had died and that he was
feel uncomfortable and bothered her so she reported his
O). The comments made Dr. Cavazos
Amaral and Lissa Frausto from Human Resources. (See Exhibit K
sexual harassment to Catalina
and O).
12.

On February 20, 2017, employee July Enriquez filed a

discrimination and harassment

((See Exhibits A and L).^ Ms.
complaint against Plaintiff that was found to have had merit. ,
“Ms. Matamoros” for
Enriquez explained to Human Resources that Plaintiff had been calling her
was going to call immigration to come
time,
told
her
in
front
of
another
employee
that
he
some
sink to wash his hands immediately after shaking her hand and stating
get her, and went to a
Id blood. I will ash my hands after this.” (See Exhibit L) On another occasion
“you have co
vaccination clinic for the school, Plaintiff told the nurse
while Enriquez was getting a shot at the
”. (See Exhibit L). After the nurse asked Enriquez if
“Hey did you know this is Ms. Matamoros
, Plaintiff stated “Oh yes. Obviously she is from Matamoros. She
she had ever taken a shot before
During the investigation with Human Resources,
got the shot in Matamoros.” (See Exhibit L).
Plaintiff “right now” she would feel
Enriquez began to cry and explained that if she had seen
to the question of how these
bad, sad , afraid and frustrated. (See Exhibit L). In response
“I love my job but it has affected me and my baby(family)..I have
incidents affected her she said
8

